Department of Homeland Security
   Ofﬁce of Inspector General

      Federal Emergency Management Agency's 

        Exit Strategy for Temporary Housing 

               in the Gulf Coast Region 





OIG-09-02                             October 2008
                                                                             Office of Inspector General

                                                                             U.S. Department of Homeland Security
                                                                             Washington, DC 20528




                                          October 2, 2008


                                              Preface

The Department of Homeland Security, Office of Inspector General, was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of
our oversight responsibilities to promote economy, efficiency, and effectiveness within the
department.

Our report addresses the Federal Emergency Management Agency’s strategy for ending its
direct housing assistance program in the aftermaths of hurricanes Katrina and Rita. It is based
on interviews with employees and officials of relevant agencies, direct observations, and a
review of applicable documents.

The analysis herein has been developed to the best knowledge available to our office, and has
been discussed with those responsible for implementation. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to
all of those who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 





                                FEMA’s Exit Strategy for Temporary Housing
                                         in the Gulf Coast Region
Table of Contents/Abbreviations 



  Executive Summary ...................................................................................................................... 1 


  Background ................................................................................................................................... 2 


  Results of Review ......................................................................................................................... 5 


       Exit Strategy ............................................................................................................................ 5 


       Progress Recovering Temporary Housing Units .................................................................... 6 


       Eligibility Recertification ........................................................................................................ 7 


          Permanent Housing Plans .................................................................................................... 9 

          Periodic Recertification Visits ............................................................................................. 9 

          Documentation Supporting Progress ................................................................................. 10 

          Communication of Responsibility ..................................................................................... 10 

          Termination for Not Accepting Reasonable Housing Offer .............................................. 10 


  Conclusion and Recommendations ............................................................................................. 10 


  Management Comments and OIG Analysis ............................................................................... 11 


  Appendices
          Appendix A:           Objective, Scope, and Methodology .......................................................... 13 

          Appendix B:           Management Comments to the Draft Report ................................................14 

          Appendix C:           Types of FEMA Housing Assistance ......................................................... 19 

          Appendix D:           FEMA’s Gulf Coast Inventory of Temporary Housing Units ................... 21 

          Appendix E:           Major Contributors to this Report .............................................................. 22 

          Appendix F:           Report Distribution .................................................................................... 23 


  Abbreviations
          CDC                   Centers for Disease Control and Prevention
          CFR                   Code of Federal Regulations
          DHS                   Department of Homeland Security
          FEMA                  Federal Emergency Management Agency
          IA                    Individual Assistance
          OIG                   Office of Inspector General
          Stafford Act          The Robert T. Stafford Disaster Relief and Emergency Assistance Act
          TRO                   Transitional Recovery Office



                                           FEMA’s Exit Strategy for Temporary Housing
                                                   in the Gulf Coast Region
OIG 

Department of Homeland Security
Office of Inspector General

  Executive Summary
                The Federal Emergency Management Agency’s (FEMA) strategy for ending
                its direct housing assistance program for Hurricanes Katrina and Rita is
                generally sound, and FEMA has made considerable progress recovering its
                temporary housing units, i.e., travel trailers, mobile homes, and park models.
                However, FEMA’s strategy is not complete because it has not been
                periodically reassessing resident eligibility for the direct housing assistance
                program or taking action to recover temporary housing units from ineligible
                residents. Unless FEMA begins this process, it will not recover all temporary
                housing units by March 1, 2009; the scheduled ending date of FEMA’s direct
                housing assistance program.

                FEMA’s process for recertifying resident eligibility includes:

                   •	 Permanent housing plans developed by each head of household that
                      include timelines for relocating.
                   •	 Periodic recertification visits that include monitoring progress in
                      meeting the timelines.
                   •	 Documentation supporting that residents continue to qualify for direct
                      housing assistance and are making satisfactory progress in meeting
                      housing plans.
                   •	 Regular communication with residents that they are expected to find
                      permanent housing at the earliest possible time and that FEMA will
                      remove temporary housing units on March 1, 2009; the scheduled
                      program termination date.
                   •	 Regular communication with residents that they may no longer qualify
                      for FEMA direct housing assistance should they decline FEMA’s first
                      reasonable offer of alternative housing.

                Due to the unprecedented magnitude of Hurricanes Katrina and Rita, it is
                understandable that FEMA did not immediately begin reassessing resident
                eligibility. However, over 2 years have passed and the program is scheduled
                to end in less than a year. Therefore, we are recommending that FEMA
                implement the periodic recertification of eligibility process outlined in federal
                regulations. FEMA also should implement procedures to terminate resident
                participation in the program and, when appropriate, evict uncooperative
                residents.



                         FEMA’s Exit Strategy for Temporary Housing
                                 in the Gulf Coast Region

                                           Page 1
      Background
                            The magnitude and scope of the devastation caused by the 2005 hurricanes
                            presents unprecedented challenges. These storms destroyed wide swaths of
                            housing, infrastructure, and businesses, and displaced hundreds of thousands
                            of people. Hurricane Katrina made landfall in Mississippi and Louisiana in
                            August 2005, and caused more damage than any other single natural disaster
                            in the history of the United States. Hurricane Katrina destroyed over 300,000
                            homes and affected approximately 90,000 square miles - an area larger than
                            Great Britain. Hurricane Rita followed a few weeks later, making landfall in
                            Texas and Louisiana, and severely damaging or destroying 23,600 homes.

                            The Robert T. Stafford Disaster Relief and Emergency Assistance Act
                            (Stafford Act) grants the President the authority to provide assistance in
                            mitigating, responding to, and preparing for disasters and emergencies such as
                            earthquakes, hurricanes, floods, tornadoes, and terrorist acts.1 FEMA
                            administers the Stafford Act and provides direct temporary housing assistance,
                            generally in the form of travel trailers, mobile homes, and park models, under
                            its Individuals and Households Program. FEMA provides direct temporary
                            housing assistance in response to disasters for a period of up to 18 months.
                            FEMA extended this period an additional 24 months due to the magnitude of
                            the disasters.

                            FEMA provided these temporary housing units to satisfy the short-term
                            housing needs of residents whose homes were damaged or destroyed. FEMA
                            placed these units on private sites while homeowners make repairs, and in
                            group configurations to support displaced renters. FEMA also placed units on
                            pre-existing commercial trailer park sites, as well as on industrial sites, to
                            support the operations of critical infrastructure.

                            As an alternative to direct housing assistance, FEMA provides hurricane
                            victims with other types of housing assistance including financial housing
                            assistance for monthly rent expenses. FEMA also places disaster victims in
                            hotels for a limited time when rental units are not immediately available.
                            Recently, the U.S. Department of Housing and Urban Development began
                            working with FEMA under an interagency agreement to provide housing and
                            case management services to hurricane victims under the Disaster Housing
                            Assistance Program. (See Appendix C)




1
    The Stafford Act is codified as amended at 42 U.S.C. §§ 5121-5207.


                                       FEMA’s Exit Strategy for Temporary Housing
                                               in the Gulf Coast Region

                                                          Page 2
Figure 1: FEMA Provided Temporary Housing on Private Sites




Source: FEMA

Figure 2: FEMA Built Group Sites to House Multiple Residents




Source: FEMA

FEMA placed over 130,000 temporary housing units in the four hurricane-
impacted states - Texas, Louisiana, Mississippi, and Alabama. As of
May 31, 2008, FEMA reported 1,002 units on group sites; 3,111 on
commercial sites; and 20,845 on private sites for a total of 24,958 travel
trailers and mobile homes in the gulf region. The vast majority of FEMA’s
remaining temporary housing units are located in Louisiana followed by
Mississippi. Few remain in Texas and Alabama. See Appendix C for data on
FEMA’s progress in recovering Gulf Coast temporary housing.

        FEMA’s Exit Strategy for Temporary Housing
                in the Gulf Coast Region

                          Page 3
                            Figure 3: Breakdown of Temporary Housing by State

                                         Remaining Manufactured Housing by State
                                                               as of May 31, 2008




                                                   Alabama
                                                                                         Texas
                                                   0.3% - 66
                                                                                        0.0% - 3

                                         Mississippi
                                        25.2% - 6,284

                                                                                              Louisiana
                                                                                            74.5% - 18,605




                            Source: FEMA Individual Assistance Global Report

                            Starting in March 2006, residents raised concerns about air quality in the
                            temporary housing units and the occurrence of respiratory and other
                            symptoms. The Centers for Disease Control and Prevention (CDC) has been
                            working with FEMA to investigate these health concerns and take action to
                            protect residents. On February 14, 2008, the CDC released preliminary results
                            from testing that found high indoor levels of formaldehyde. Formaldehyde is
                            a common chemical irritant that can come from a variety of sources including
                            fiberglass, carpets, and manufactured wood products. In response to these
                            findings, FEMA increased its efforts to find residents alternative forms of
                            housing, including moving individuals to hotels/motels or subsidized rental
                            units.

                            Disaster victims, especially in Louisiana, face significant challenges repairing
                            their homes or securing other permanent housing. A December 2007 survey
                            conducted by a FEMA consultant indicated that FEMA staff in Louisiana said
                            that renters prior to the storms have had difficulty finding affordable housing
                            in desired areas.2


2
    Louisiana Transitional Recovery Office Assessment Report, January 10, 2008, Hagerty Consulting.


                                      FEMA’s Exit Strategy for Temporary Housing
                                              in the Gulf Coast Region

                                                         Page 4
                        The FEMA staff surveyed also responded that homeowners faced financial
                        obstacles including insufficient insurance coverage and limited Road Home
                        Program funding.3 High construction costs, competition for available
                        contractors, as well as new disaster mitigation requirements compounded
                        these financial problems. The FEMA staff surveyed said residents with
                        special needs also faced additional challenges finding permanent housing.
                        Half of the FEMA staff responding to the survey did not believe there were
                        sufficient rental resources available in areas where residents wished to live.

        Results of Review
                        FEMA’s strategy for ending its direct housing assistance program is generally
                        sound, and FEMA has made considerable progress recovering temporary
                        housing units. However, FEMA’s strategy is not complete since FEMA’s
                        strategy has not recertified resident eligibility or taken action to recover
                        temporary housing units from ineligible residents. FEMA must implement the
                        recertification of eligibility process to ensure recovery of all temporary
                        housing units by March 1, 2009, which is the ending date of FEMA’s direct
                        housing assistance program.

            Exit Strategy
                        FEMA’s Gulf Coast housing strategy generally is to pursue all available and
                        legal means, resources, and programs to move individuals out of temporary
                        housing units and into more permanent housing. To that end, FEMA staff at
                        group sites work closely with residents to find permanent housing. FEMA
                        then closes each group site after the final resident moves out or is located to
                        another group site. FEMA staff also work with state and local governments as
                        well as non-profit organizations to help residents locate suitable housing and
                        meet other needs.

                        FEMA is near meeting its goal of closing all group sites by June 2008. As of
                        the end of May, only 14 sites remain open. Further, concerns over the
                        potential adverse health effects of formaldehyde exposure have accelerated
                        FEMA’s efforts to help group site residents find alternate housing solutions.
                        FEMA then plans to direct resources toward helping commercial site residents
                        find permanent housing. Concurrent with this effort, FEMA plans to continue
                        to work with state, local and voluntary organizations to help private site
                        residents repair and move back into their homes.



3
 Louisiana’s Road Home program is funded by the U.S. Department of Housing and Urban Development and is
designed to provide eligible homeowners up to $150,000 in compensation for the loss of their homes.


                                  FEMA’s Exit Strategy for Temporary Housing
                                          in the Gulf Coast Region

                                                    Page 5
Progress Recovering Temporary Housing Units
        FEMA has made considerable progress recovering its temporary housing
        units. FEMA reported installing over 130,000 travel trailers and mobile
        homes following the 2005 hurricanes. By the end of May 2008, FEMA
        reported about 25,000 units remaining in the four states affected by hurricanes
        Katrina and Rita - an 81% reduction. More recently, during the eight months
        ending May 2008, FEMA reported recovering approximately 37,000 units or
        about 150 per day.

        Figure 4: Temporary Housing Units Remaining in Gulf Coast
                             Remaining Gulf Coast Manufactured Housing

            70,000

            60,000

            50,000

            40,000

            30,000

            20,000

            10,000

               -
                       Oct. 07   Nov. 07     Dec. 07   Jan. 08   Feb. 08   Mar. 08   Apr. 08   May 08


        Source: Gulf Coast Recovery Office Individual Assistance Global Report.

        Although FEMA’s temporary housing unit recovery rate, if maintained, would
        result in recovering all units by the program end date, there is no guarantee
        this recovery rate will continue. For example, FEMA managers said they
        anticipate it will become more difficult to find suitable, affordable housing in
        many areas as the program ending date approaches.

        FEMA’s strategy in 2007 and early 2008 was to emphasize helping group site
        residents find permanent housing and closing group sites. During the eight
        months ending May 2008, FEMA reported reducing the number of group site
        units from approximately 5,800 to 1,000 (83%) while the number of occupied
        group sites fell from 96 to 14 (85%).




                     FEMA’s Exit Strategy for Temporary Housing
                             in the Gulf Coast Region

                                           Page 6
                         Figure 5: Group Site Temporary Housing Units
                                           Remaining Manufactured Housing in Group Sites


                             6,000


                             5,000


                             4,000


                             3,000


                             2,000


                             1,000


                                0
                                     Oct. 07   Nov. 07   Dec. 07   Jan. 08   Feb. 08   Mar. 08   Apr. 08   May 08


                         Source: Gulf Coast Recovery Office Individual Assistance Global Report.

            Eligibility Recertification
                         Although FEMA’s strategy for closing group sites during 2008 is generally
                         sound, more can be done. FEMA needs to periodically recertify the eligibility
                         of the approximately 21,000 private-site residents and 3,000 commercial-site
                         residents.4 Also, FEMA needs to implement policies and procedures for
                         terminating participation in the program and removing temporary housing
                         units when it determines that residents no longer qualify for direct housing
                         assistance.

                         Failure to recertify resident eligibility could result in residents remaining
                         longer than appropriate while others could remain indefinitely. For example,
                         private site residents could keep temporary housing units even when they have
                         completed repairs, or conversely, made little or no progress toward repairing
                         their homes. Further, some residents could remain even though they were not
                         making efforts to find permanent housing. Others may have simply moved
                         out and failed to notify FEMA.

                         It is FEMA’s goal to help residents find permanent housing solutions as soon
                         as possible because of the high costs and potential dangers of prolonging the
                         program. FEMA pays millions of dollars each month for housing

4
 Results reported by FEMA as of May 31, 2008, Gulf Coast Recovery Office Individual Assistance Global Report,
Executive Summary.


                                     FEMA’s Exit Strategy for Temporary Housing
                                             in the Gulf Coast Region

                                                         Page 7
                        maintenance while residents remain vulnerable to severe weather and
                        exposure to potential formaldehyde-related health risks. However, limited
                        affordable housing along the coastal areas of Louisiana and Mississippi,
                        especially in the New Orleans area, has made finding suitable affordable
                        housing extremely difficult.

                        According to FEMA officials, it has not been recertifying eligibility and
                        terminating participation for several reasons, including:

                            •	 The large number (over 130,000) of temporary housing units originally
                               installed made it impractical for FEMA staff to routinely visit and
                               recertify tens of thousands of residents;
                            •	 The number of variables, e.g., contractor availability, affecting
                               rebuilding efforts on private sites made assessing the occupant’s
                               permanent housing plan too dynamic and subjective;
                            •	 FEMA has not implemented a termination policy that would require
                               ending participation in the program for those individuals who are no
                               longer eligible for direct assistance, or who have not voluntarily
                               vacated the temporary housing unit; and
                            •	 FEMA officials believed it would have been inequitable to begin
                               recertifying direct housing assistance recipients when court decisions
                               prevented FEMA from actively recertifying the eligibility of residents
                               receiving financial housing assistance, i.e., rental assistance payments,
                               rather than FEMA-provided temporary housing units.

                        FEMA officials further emphasized that, even though it has not been
                        recertifying eligibility, it continues to work with residents to find permanent
                        housing solutions.

                        Recertification guidance is outlined in federal regulations and FEMA internal
                        procedures.5 This guidance sets out a recertification process that includes the
                        following elements:

                            •	 Permanent housing plans developed by each head of household that
                               includes timelines for achieving planning milestones.
                            •	 Periodic recertification visits that include monitoring progress toward
                               meeting these housing plan timelines.
                            •	 Documentation supporting that residents continue to qualify for direct
                               housing assistance and are making satisfactory progress in meeting
                               their housing plans.


5
 44 CFR § 206.114 and FEMA Disaster Assistance Policy 9451.5, Termination of Leases and Occupancy Agreements
Under Direct Assistance (Temporary Housing Units), December 7, 2007.


                                  FEMA’s Exit Strategy for Temporary Housing
                                          in the Gulf Coast Region

                                                    Page 8
                                •	 Regular communication with residents that they are expected to find
                                   permanent housing at the earliest possible time and that FEMA will
                                   remove the temporary housing unit before March 1, 2009, the program
                                   termination date.
                                •	 Regular communication with residents conveying that they may no
                                   longer qualify for FEMA direct housing assistance should they decline
                                   FEMA’s first reasonable offer of permanent housing.

                           FEMA has only been terminating resident participation when the resident
                           violates the terms of the lease agreement, generally for breaking group site
                           rules, e.g., illegal or disruptive behaviors. FEMA has developed, but not yet
                           implemented, a more comprehensive policy for terminating assistance for
                           ineligible residents.

                           Permanent Housing Plans

                           FEMA has not required residents in Louisiana to provide permanent housing
                           plans, including timelines for meeting the plans, as a condition for continued
                           direct housing assistance. FEMA officials in Mississippi did obtain housing
                           plans. FEMA should use the housing plans to monitor progress toward
                           securing permanent housing. FEMA should also emphasize to residents that
                           working to meet the plans is a requirement for continued participation in the
                           program and that failure to meet milestones set forth in the plans is grounds
                           for FEMA to terminate their participation in the program and remove the
                           temporary housing unit.

                           Periodic Recertification Visits

                           FEMA needs to routinely visit private sites in Louisiana to recertify residents
                           and monitor their progress in meeting permanent housing plans. FEMA
                           officials in Mississippi said their staff periodically visit residents, but do not
                           recertify the residents during those visits. Requirements for direct housing
                           assistance are in federal regulations and discussed in FEMA internal
                           documents.6 To administer these requirements, FEMA should recertify
                           residents periodically, typically about every 30 days.7 When FEMA
                           determines that the residents are no longer eligible for direct housing
                           assistance, it should provide the residents written notices of termination.8
                           On-site visits would also provide FEMA an opportunity to identify any unmet
                           needs and refer the residents to the appropriate agency or voluntary assistance
                           organization.

6
    44 CFR § 206.117(b)(ii).

7
    Individuals and Households Program—Direct Assistance Specialist & Support Specialist Operations Manual, page 37.

8
    44 CFR § 206.117(b)(ii)(H).



                                      FEMA’s Exit Strategy for Temporary Housing
                                              in the Gulf Coast Region

                                                        Page 9
                          Documentation Supporting Progress

                          FEMA needs to enforce the requirement that residents in Louisiana provide
                          documentation supporting their continued eligibility for the direct housing
                          assistance program. FEMA officials in Mississippi obtained supporting
                          documentation from residents. This documentation is important to show that
                          the residents are making progress toward obtaining permanent housing.
                          Failure to document the efforts made to find permanent housing is also
                          grounds for terminating residents from the program.9

                          Communication of Responsibility

                          FEMA needs to regularly communicate to residents that they are expected to
                          find permanent housing at the earliest possible time10 and, when the program
                          ends on March 1, 2009, any remaining units will be scheduled for removal.
                          FEMA staffs have been encouraging residents to find permanent housing.
                          Although federal regulations limit the period of assistance to 18 months,
                          FEMA extended the timeline to 42 months due to the extraordinary
                          circumstances presented by Hurricanes Katrina and Rita.11 Periodic reminders
                          to residents during recertification visits of their responsibility to secure
                          permanent housing should help ensure a higher level of cooperation when the
                          time comes to remove any remaining temporary housing units.

                          Termination for Not Accepting Reasonable Housing Offer

                          FEMA needs to continue to communicate to residents that they are expected
                          to accept FEMA’s first offer of alternative housing assistance and that
                          unwarranted refusal of assistance could result in their termination from the
                          housing program and removal of their temporary housing unit. This provision
                          is addressed in federal regulations12 and is a condition for use of the
                          temporary housing unit on FEMA Form 90-69D, Receipt for Government
                          Property. Although this expectation is listed on the resident’s receipt, to help
                          ensure a higher level of cooperation, FEMA should remind residents of the
                          requirement during periodic recertification visits.

        Conclusion and Recommendations
                          Due to the unprecedented magnitude of the disasters, it is understandable that
                          FEMA did not immediately begin recertifying residents for continued

9
  44 CFR § 206.117(b)(ii)(G)(5).
10
   44 CFR § 206.114(a).
11
   44 CFR § 206.110(e).
12
   44 CFR § 206.110.(c).


                                   FEMA’s Exit Strategy for Temporary Housing
                                           in the Gulf Coast Region

                                                    Page 10
     eligibility. However, over 2 years have passed and the program is scheduled
     to end in less than a year. Therefore, to help end the direct housing assistance
     program by March 1, 2009, FEMA should implement the periodic
     recertification process as outlined in federal regulations and its internal policy.
     Failure to include this process in its exit strategy could jeopardize its ability to
     vacate and recover all temporary housing units by the scheduled ending date
     of the program.

     We recommend that the Administrator, Federal Emergency Management
     Agency:

     Recommendation #1: Obtain permanent housing plans from each resident,
     including timelines for achieving permanent housing.

     Recommendation #2: Perform periodic recertification visits to:
     (1) reestablish eligibility, (2) monitor progress in finding permanent housing,
     (3) identify unmet needs, (4) obtain support for continued eligibility, and
     (5) communicate resident responsibility for finding permanent housing.

     Recommendation #3: Implement policies and procedures for terminating
     residents from the direct housing assistance program that no longer qualify for
     the assistance, and evicting uncooperative residents from temporary housing
     units.

Management Comments and OIG Analysis
     FEMA provided written comments on the draft of this report (See
     Appendix B). FEMA concurred with the three recommendations in this
     report. The following summarizes FEMA’s responses to each
     recommendation, our analysis of FEMA’s responses, and the status of each
     recommendation.

     Recommendation #1: Obtain permanent housing plans from each resident,
     including timelines for achieving permanent housing.

     FEMA concurs with this recommendation. The Louisiana Transitional
     Recovery Office (TRO) Individual Assistance (IA) -Recertification
     Department has obtained permanent housing plans along with timelines for
     completion for applicants housed in FEMA temporary housing units.
     Through periodic site visits and phone contacts, each TRO has continued to
     monitor and update these permanent housing plans.

     OIG Analysis: We consider FEMA’s planned action responsive to the
     recommendation. However, we reiterate that FEMA should ensure that the


              FEMA’s Exit Strategy for Temporary Housing
                      in the Gulf Coast Region

                               Page 11
requirement for permanent housing plans is emphasized in the recertification
process, for current and future disasters. Therefore, the recommendation is
resolved and closed.

Recommendation #2: Perform periodic recertification visits to:
(1) reestablish eligibility, (2) monitor progress in finding permanent housing,
(3) identify unmet needs, (4) obtain support for continued eligibility, and
(5) communicate resident responsibility for finding permanent housing.

FEMA concurs with this recommendation. The Louisiana TRO IA-
Recertification Department has obtained permanent housing plans along with
timelines for completion for applicants housed in FEMA temporary housing
units and have continued to make site visits to monitor and update these
permanent housing plans. They require applicants to provide documentation
to support their continued eligibility. This has included insurance settlements
information, Road Home information, contractor information, income
information, documentation regarding issues with local and state permitting
and various other types of documentation that supports the progress or lack
thereof with regards to completing their permanent housing plans.

OIG Analysis: We consider FEMA’s planned action responsive to the
recommendation. However, we reiterate that FEMA should ensure that the
requirement for monitoring of continued applicant eligibility is emphasized in
the recertification process, for current and future disasters. Therefore, the
recommendation is resolved and closed.

Recommendation #3: Implement policies and procedures for terminating
residents from the direct housing assistance program that no longer qualify for
the assistance, and evicting uncooperative residents from temporary housing
units.

FEMA concurs with this recommendation. FEMA is currently developing
policies and procedures that will address this issue. Further information will
be provided in their 90-day status update upon issuance of the final report.

OIG Analysis: We consider FEMA’s planned action responsive to the
recommendation. Therefore, the recommendation is resolved and open
pending FEMA’s issuance and our review of the indicated policies and
procedures.




         FEMA’s Exit Strategy for Temporary Housing
                 in the Gulf Coast Region

                          Page 12
Appendix A
Objective, Scope, and Methodology


                    Our objective was to determine whether FEMA has developed and
                    implemented an effective strategy for ending its direct housing assistance
                    program and recovering temporary housing units, i.e., travel trailers, mobile
                    homes, and park models. Our fieldwork consisted of interviews with FEMA
                    and state officials, document reviews, and analysis of program performance
                    data. We did not test the accuracy of statistical data provided by FEMA in its
                    Individual Assistance Global Report.

                    We reviewed relevant laws, federal regulations, and FEMA policies. We also
                    reviewed Congressional testimony and prior Office of Inspector General and
                    Government Accountability Office audit reports. In January 2008, we visited
                    FEMA temporary housing sites and interviewed FEMA and state officials in
                    New Orleans and Baton Rouge, Louisiana, and Biloxi, Mississippi. We
                    limited our analysis to a review of FEMA’s exit strategy regarding temporary
                    housing units located in Louisiana and Mississippi because these two states
                    comprised 99% of the remaining temporary housing units as of May 31, 2008.
                    We did not assess the adequacy of FEMA’s controls over its direct housing
                    program because it was not necessary to accomplish our audit objective.

                    We conducted this audit from September 2007 to May 2008 under the
                    authority of the Inspector General Act of 1978, as amended, and according to
                    Generally Accepted Government Auditing Standards.




                             FEMA’s Exit Strategy for Temporary Housing
                                     in the Gulf Coast Region

                                              Page 13
Appendix B
Management Comments to the Draft Report




                           FEMA’s Exit Strategy for Temporary Housing
                                   in the Gulf Coast Region

                                            Page 14
Appendix B
Management Comments to the Draft Report




                           FEMA’s Exit Strategy for Temporary Housing
                                   in the Gulf Coast Region

                                            Page 15
Appendix B
Management Comments to the Draft Report




                           FEMA’s Exit Strategy for Temporary Housing
                                   in the Gulf Coast Region

                                            Page 16
Appendix B
Management Comments to the Draft Report




                           FEMA’s Exit Strategy for Temporary Housing
                                   in the Gulf Coast Region

                                            Page 17
Appendix B
Management Comments to the Draft Report




                           FEMA’s Exit Strategy for Temporary Housing
                                   in the Gulf Coast Region

                                            Page 18
Appendix C
Types of FEMA Housing


                  In the aftermath of a declared disaster, FEMA's actions focus on supporting
                  state efforts to ensure that all disaster victims are provided safe and secure
                  shelters, with access to food and other necessary life-sustaining commodities
                  and resources. As the situation stabilizes, FEMA works with the state to
                  transition shelter residents back to their pre-disaster dwellings or, if those
                  dwellings cannot be re-inhabited, temporary housing.

                  For most disasters, individuals are generally able to return to their homes
                  within hours or days. However, for more serious disasters, where numerous
                  dwellings have been destroyed or rendered uninhabitable for an extended
                  period, additional housing assistance may be needed. The type of housing
                  assistance provided during the intermediate housing period (generally up to 18
                  months) covers the gap between sheltering and securing permanent housing
                  and is referred to as interim housing.

                  FEMA's approach is to provide safe, flexible interim housing assistance that
                  can be adjusted to the range of requirements generated by a disaster.

                  Types of Assistance:

                  Immediate Temporary Repairs. FEMA provides plastic roof tarps, through
                  the U.S. Army Corps of Engineers, to limit further damage to homes and
                  make them habitable until permanent roof repairs can be made.

                  Repair and Replacement Assistance. Following inspection and verification
                  of damages, FEMA provides eligible homeowners up to $28,800 for repairs to
                  make their home habitable, or to replace a destroyed or condemned home.

                  Financial Rental Assistance. If a damaged home is destroyed or cannot be
                  repaired quickly, FEMA provides financial assistance. This assistance can be
                  used to rent an apartment or other temporary housing while repairs are
                  underway or for disaster victims to look for permanent housing.

                  Transitional Shelters. If emergency shelters are overwhelmed or FEMA
                  determines that evacuees will not be able to return to their homes for an
                  extended period of time, FEMA may authorize eligible disaster victims to
                  receive temporary hotel-motel funding assistance under the Transitional
                  Shelter Protocol.

                  Host-State Housing Protocol. If significant numbers of disaster victims have
                  been displaced to other states, FEMA may implement the Host-State Housing
                  Protocol. This protocol enables FEMA to make rental assistance payments
                  directly to property owners through federal partners or a contract agent and


                           FEMA’s Exit Strategy for Temporary Housing
                                   in the Gulf Coast Region

                                            Page 19
Appendix C
Types of FEMA Housing


                  can be provided for up to 18 months. While this protocol is designed for use
                  in situations where states are hosting large numbers of evacuees from another
                  state over an extended period of time, it may also be used within the affected
                  home state.

                  Manufactured Housing Assistance. If no apartments or other rentable
                  properties are available within a reasonable commuting distance, temporary
                  housing units may be needed. When requested by a state, FEMA provides a
                  range of options for temporary housing units, which may include mobile
                  homes, park models, or other alternative forms of temporary housing. Once
                  the appropriate options are determined acceptable by the state, temporary
                  housing can be located on an eligible victim's private property, on a pre-
                  existing commercial pad, or, as a last resort, on a new group site approved by
                  local officials and constructed and maintained by FEMA.

                  Alternative Forms of Direct Housing. FEMA works with states to identify
                  eligible households for alternative housing. In general, the priority for such
                  housing goes to private site applicants whose property is too small to
                  accommodate a mobile home or park model, but may accommodate an
                  alternative form of housing.

      .




                           FEMA’s Exit Strategy for Temporary Housing
                                   in the Gulf Coast Region

                                            Page 20
Appendix D
FEMA’s Gulf Coast Inventory of Temporary Housing Units


                  July 2007   Aug. 2007   Sept. 2007      Oct. 2007   Nov. 2007     Dec. 2007     Jan. 2008        Feb. 2008        Mar. 2008        Apr. 2008        May 2008
Louisiana
Group                5,729       5,314        4,374          3,801          3,023         2,312         1,990            1,499            1,263             1,003
                                                                                                                                                                            710
Private             38,396      37,842       34,651         32,934         30,414        27,820        26,016           23,213           21,137           18,360          15,895
Commercial           5,581       5,532        5,170          5,060          4,655         4,251         3,842            3,333            2,878             2,473          2,000
Industrial           1,109       1,064        1,012
                                                              969            882           843          781               652             635                 -               -
Totals              50,815      49,752       45,207         42,764         38,974        35,226        32,629           28,697           25,913           21,836          18,605

Mississippi
Group                1,524       1,499        1,402          1,309          1,153         1,071
                                                                                                        991               850             745               495             292
Private             14,017      13,585       12,290         11,343         10,344         9,408         8,512            7,315            6,485             5,622          4,895
Commercial           2,171       1,499        2,019          1,892          1,742         1,625         1,633            1,568            1,394             1,244          1,097
Industrial
Totals              17,712      16,583       15,711         14,544         13,239        12,104        11,136            9,733            8,624             7,361          6,284
Alabama
Group
Private                                                                                                       98               88               63               63              52
                      282         248          228            192            132           109
Commercial              53          46           38             34             20            23               19               17               16               16              14
Industrial
Totals                                                                                                                                                                           66
                      335         294          266            226            152           132           117              105                 79               79
Texas units:
Group
Private              1,074       1,038
                                               881            773         612           470           354              187              127               73               3
Commercial              31          28
Industrial
Totals               1,105       1,066
                                               881            773         612           470           354              187              127               73                3
Total Units         69,967      67,695       62,065         58,307       52,977       47,932        44,236           38,722            34,743           29,349          24,958


Source: FEMA Gulf Coast Recovery Individual Assistance Global Report



                                                     FEMA’s Exit Strategy for Temporary Housing
                                                             in the Gulf Coast Region

                                                                      Page 21
Appendix E
Major Contributors to this Report


                      Gina Smith, Director
                      Christopher Dodd, Audit Manager
                      John Polledo, Auditor-in-Charge
                      Stuart Josephs, Auditor




                               FEMA’s Exit Strategy for Temporary Housing
                                       in the Gulf Coast Region

                                                Page 22
Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary, Office of Policy
                      Assistant Secretary, Office of Public Affairs
                      Assistant Secretary, Office of Legislative Affairs
                      FEMA Assistant Administrator, Disaster Assistance Directorate
                      FEMA Assistant Administrator, Gulf Coast Recovery
                      FEMA Audit Liaison (Project Code DP7R09)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                              FEMA’s Exit Strategy for Temporary Housing
                                      in the Gulf Coast Region

                                               Page 23
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
